Quarterly Progress and
Oversight Report on the Civilian
Assistance Program in Pakistan
As of June 30, 2010




 
Foreword
This is the second quarterly progress and oversight report on the U.S. Government’s civilian assistance
program in Pakistan. The report was requested by the U.S. Embassy in Pakistan and is intended to
inform stakeholders about progress achieved to date, problems encountered during program
implementation, and actions taken to address them.

This report covers April 1 through June 30, 2010. For fiscal year (FY) 2010, $1.458 billion has been
appropriated to support the assistance strategy in Pakistan. However, most of the appropriated funds
have not yet been received at the field level. The U.S. Embassy reports that $424.4 million in FY 2010
funds have been obligated as of June 30, 2010.

The information on program status in this report is based on information provided by the departments
and agencies working in Pakistan—the U.S. Agency for International Development (USAID), the
Department of State, the Department of Agriculture, and the Department of Commerce. The program
oversight results are taken from audits, investigations, and inspections performed by the Offices of
Inspector General for USAID, the Department of State, and the Department of Defense, as well as by
the U.S. Government Accountability Office.




________________/s/ _______________________
The Honorable Donald A. Gambatesa
Inspector General
U.S. Agency for International Development



________________/s/ _______________________
The Honorable Harold W. Geisel
Deputy Inspector General
Department of State



________________/s/ _______________________
The Honorable Gordon S. Heddell
Inspector General
Department of Defense




 
Contents
Executive Summary ........................................................................................................................................................... 1

Background.......................................................................................................................................................................... 3

Program Status ................................................................................................................................................................... 7

    High-Impact, High-Visibility Infrastructure Programs........................................................................................... 9

    Focused Humanitarian and Social Services: Immediate Postcrisis and Humanitarian Assistance...........13

              Oversight Results .............................................................................................................................................15

   Focused Humanitarian and Social Services: Increased Access to and Quality of Education and Health
   Services...........................................................................................................................................................................16

              Oversight Results .............................................................................................................................................21

    Government Capacity Development: Improved National and Local Governance ....................................21

    Government Capacity Development: Improved Security and Legal Institutions .......................................25

    Assistance to Pakistani Institutions .........................................................................................................................27

Risks and Mitigation Strategies .....................................................................................................................................31

Staffing ................................................................................................................................................................................34

Oversight Status...............................................................................................................................................................36

    USAID Office of Inspector General........................................................................................................................36

    Department of State Office of Inspector General ..............................................................................................39

    Department of Defense Office of Inspector General ........................................................................................40

    Government Accountability Office.........................................................................................................................40

    Completed Oversight Reports, as of June 30, 2010...........................................................................................43

Appendix I—The Enhanced Partnership with Pakistan Act of 2009, Public Law 111-73...............................44

Appendix II—–Abbreviations........................................................................................................................................47
Executive Summary
U.S. assistance to Pakistan is authorized by the Enhanced Partnership with Pakistan Act of 2009 (Public
Law 111-73, 123 Stat. 2060). The act authorizes a total of $7.5 billion for fiscal years (FY) 2010 through
2014 to support programs for democratic, economic, and development assistance. The U.S.
Department of State’s (DOS) strategy report for providing civilian assistance outlines three key
objectives:

•   Improve the Government of Pakistan’s capacity to address the country’s most critical infrastructure
    needs.

•   Help the Pakistani Government address basic needs and provide improved economic opportunities
    in areas most vulnerable to extremism.

•   Strengthen Pakistan’s capacity to pursue economic and political reforms that reinforce stability.

For FY 2010, Congress appropriated $1.458 billion. As of June 30, 2010, nearly $2.141 billion in
FY 2009 and FY 2010 funds have been obligated to implement the programs identified in the civilian
assistance strategy.

These funds support U.S. Government assistance programs and align with the three broad categories
identified in the assistance strategy: high-impact, high-visibility infrastructure; focused humanitarian and
social services; and government capacity development.

The U.S. Agency for International Development (USAID) reports a significant increase in awards to
Pakistani institutions. As of June 30, 2010, 33 awards totaling $875.5 million had been made. To
overcome the challenges presented by the limited institutional capacity of some Pakistani institutions,
strategies have been developed including preaward audits of local implementing partners, capacity-
building assistance, and procedures to ensure accountability for U.S. assistance funds. However, other
issues, such as security threats, staffing shortages, and delays in processing visas for U.S. officials,
continue to impede the implementation and monitoring of assistance programs.

Oversight entities have also taken steps to ensure that U.S. Government funds are protected against
waste and theft. For example, the DOS and USAID Offices of Inspector General (OIGs) have
established field offices in Pakistan, and the USAID OIG has provided training to auditors from the
Office of the Auditor General; conducted joint investigations with the National Accountability Bureau;
provided fraud awareness training; and collaborated with USAID/Pakistan to establish a fraud hotline.

During the period covered by this report, April 1 through June 30, 2010, USAID OIG completed one
performance audit, one performance review, and two financial audits. The performance audit, of
USAID/Pakistan’s Primary Healthcare Revitalization, Integration and Decentralization in Earthquake-
Affected Areas Project, focused on improving access to and the quality of primary health care services.
The audit found that the project has contributed to improving the quality of primary health care

                                                                                                          1
services, but more work remains to be done to improve access to these services. OIG’s review of
USAID’s programs for internally displaced persons (IDPs) in Pakistan found that USAID’s methods for
monitoring activities in high-threat environments needed improvement, as did controls over payments
intended for IDPs. One financial audit—on the management of USAID funds to Forman Christian
College for a degree program in basic science and technology—did not identify any significant
deficiencies or any instances of noncompliance with applicable laws and regulations, or agreement
provisions. The other financial audit, conducted on USAID funds managed by Khushhali Bank to
improve access to microfinance services and to strengthen the bank as a microfinance institution,
identified $65,652 in questioned costs, as well as $24,282 in cost-sharing contributions by the bank that
were also questioned. In addition to these audit activities, USAID OIG closed five investigative cases.
One case resulted in the termination of the employment of a USAID personal services contractor who
had used his position to obtain employment for relatives with a USAID-funded partner.

During the same period, the U.S. Government Accountability Office (GAO) issued one performance
audit that covered the planning and documentation of U.S. development assistance in the Federally
Administered Tribal Areas (FATA). GAO found that planning and documentation of U.S. development
assistance programs need to be improved. U.S. development objectives in FATA are generally aligned
with U.S. national security goals and Pakistan’s FATA development plans, but joint plans by USAID and
Pakistan had not yet been completed. Also, some key elements and documentation for programs were
missing or not collected in performance management plans and reports. Further, GAO found that
USAID could not apply the direct monitoring procedures for development assistance called for in its
guidance, because of security challenges, and did not always document its use of indirect monitoring
procedures. GAO made several recommendations to DOS and USAID and noted the importance of
enhancing oversight in light of the $7.5 billion in assistance for Pakistan authorized by the act.




                                                                                                       2
Background
In May 2010, the Administration’s U.S. National Security Strategy reaffirmed Pakistan’s strategic
importance to the United States:

     [W]e will foster a relationship with Pakistan founded upon mutual interests and mutual respect.
     To defeat violent extremists who threaten both of our countries, we will strengthen Pakistan’s
     capacity to target violent extremists within its borders, and continue to provide security
     assistance to support those efforts. To strengthen Pakistan’s democracy and development, we
     will provide substantial assistance responsive to the needs of the Pakistani people, and sustain a
     long-term partnership committed to Pakistan’s future. The strategic partnership that we are
     developing with Pakistan includes deepening cooperation in a broad range of areas, addressing
     both security and civilian challenges, and we will continue to expand those ties through our
     engagement with Pakistan in the years to come. 1

Demonstrating their shared commitment to the United States-Pakistan partnership, Secretary of State
Hillary Clinton and Foreign Minister Shah Mahmood Qureshi engaged in a strategic dialogue in late
March 2010, the first to be held at the ministerial level. 2 Secretary Clinton said the U.S. Administration
would work with Pakistan to improve its agricultural infrastructure and would endeavor to provide
Pakistan greater access to U.S. markets. 3 The two officials signed a letter of intent to upgrade major
road infrastructure in northwest Pakistan, as well as implementation agreements for three thermal
power station rehabilitation projects to remedy electricity shortages in the country. Follow-on
meetings of strategic dialogue working groups—including those for agriculture, water, and energy—took
place in Islamabad the week of June 14.

Since the strategic dialogue, Pakistan has taken steps to decentralize government authority and improve
transparency. On April 19, 2010, President Asif Ali Zardari signed an amendment to Pakistan’s
constitution that limits Presidential power—especially the power to dismiss Parliament under
unspecified emergency provisions—and increases that of the Prime Minister, the other branches of
government, and the provincial governments. The amendment mandates local governments in all four
provinces, increases representation of religious minorities in the Senate, requires the transparent
appointment of judges and the chief election commissioner, and changes the name of the North-West
Frontier Province to Khyber Pakhtunkhwa. 4

Assistance to Pakistan is authorized by the Enhanced Partnership with Pakistan Act of 2009 (Public
Law 111-73, 123 Stat. 2060), a bipartisan bill sponsored by Senators John Kerry and Richard Lugar,
Representative Howard Berman, and others. The act articulates the U.S. Government’s intention to
work with the Government of Pakistan to build mutual trust and confidence by actively and consistently
                                                            
1
  National Security Strategy 2010, White House, May 27, 2010.
2  U.S.-Pakistan Strategic Dialogue, Washington, DC, March 24, 2010; U.S. Embassy Islamabad, “U.S.-Pakistan Strategic
Dialogue.”
3 Voice of America, “U.S.-Pakistan Strategic Dialogue,” April 4, 2010.

4 Colin Cookman, “The 18th Amendment and Pakistan’s Political Transitions,” Center for American Progress, April 19, 2010.



                                                                                                                       3
pursuing a sustained, multifaceted relationship devoted to strengthening mutual security, stability, and
prosperity. The act authorizes $1.5 billion per year for fiscal years (FY) 2010 through 2014, for a total
of $7.5 billion, to support democratic, economic, development, and security assistance. Appendix I
presents the key provisions of the act.

On December 14, 2009, DOS provided Congress a report on its strategy for providing democratic,
economic, and development assistance. 5 The strategy report outlines three key objectives:

•      Improve the Pakistani Government’s capacity to address the country’s most critical infrastructure
       needs.

•      Help the Pakistani Government address basic needs and provide improved economic opportunities
       in areas most vulnerable to extremism.

•      Strengthen Pakistan’s capacity to pursue economic and political reforms that reinforce stability.

The programs envisioned to achieve these objectives fall under five areas: (1) high-impact, high-visibility
infrastructure programs, (2) focused humanitarian and social services—immediate postcrisis and
humanitarian assistance, (3) focused humanitarian and social services—increased access to and quality of
education and health services, (4) government capacity development—improved national and local
governance, and (5) government capacity development—improved security and legal institutions.
Table 1 presents programs in these areas, along with funding levels planned for FY 2010–14.

                                 Table 1. Projected U.S. Assistance to Pakistan, FY 2010–14 

                                                  Activities                                              ($ Millions)
                  Investment in high-impact, high-visibility infrastructure
                                                                                                             3,500
                  programs
                     Agriculture                                                                             2,000
                     Support for permanent solutions to Pakistan’s energy crisis                             1,000
                     Other infrastructure                                                                      500
                  Focused humanitarian and social services                                                   2,000
                     Immediate postcrisis and other humanitarian assistance                                    500
                     Increased access to and quality of education and health services                        1,500
                  Government capacity improvement                                                            2,000
                     Improved national and local governance                                                  1,000
                     Improved security and legal institutions                                                1,000
                   Total                                                                                     7,500

               Source: U.S. Department of State, Pakistan Assistance Strategy Report, December 14, 2009


The outcomes envisioned by the Enhanced Partnership with Pakistan Act will not be achieved easily.
The U.S. Government’s plan to channel 50 percent of FY 2010 funds through Pakistani institutions
                                                            
5   U.S. Department of State, Pakistan Assistance Strategy Report, December 14, 2009.


                                                                                                                         4
represents a fundamental change in civilian assistance delivery. This approach has raised concerns about
the capacity of Pakistani institutions to manage a large volume of assistance funds transparently and
responsibly. For example, the Senate Foreign Relations Committee has expressed concerns that too
much money delivered too fast to Pakistani institutions could place U.S. assistance funds at risk, 6 and
Senator Richard Lugar has written about Pakistani delays in approving visa applications for U.S. diplomats
and other U.S. personnel who are needed to deliver assistance. 7

In his response to these concerns, Special Representative Richard Holbrooke outlined steps to ensure
that assistance is used for authorized purposes and properly accounted for:

•      Federal and provincial agencies receiving funding have been chosen after considering their
       experience in working with international agencies and their accounting safeguards.

•      The U.S. Government will install accountants in Pakistani institutions and establish units in Pakistan
       Government ministries to help manage projects and mentor ministry staff.

•      The U.S. Government has established OIG offices in Islamabad for both USAID and DOS.

•      Assistance plans will be posted on both the U.S. Embassy and USAID Web sites to increase
       transparency. 8

As for aligning assistance with Pakistani priorities, Ambassador Holbrooke described the importance of
consultations between the Governments of the United States and Pakistan at the federal, provincial, and
local levels, and with Pakistani civil society. Ambassador Holbrooke also pointed out that the United
States is pooling resources with the Asian Development Bank, the World Bank, and other international
financial institutions to bring about structural reform and greater investment in the energy sector, which
is critical to economic growth. The U.S. Government is also urging Pakistan to enlarge its revenue base
so that it can spend more of its own resources on health and education.

Ambassador Holbrooke indicated that the allocation of funds and identification of projects and partners
are just beginning to accelerate. Also, he noted that, although the U.S. approach “may slow spending
rates, it is critical to ensuring our assistance contributes to our political, economic and social objectives
in Pakistan.” As the United States shifts ownership of development funding toward the Pakistani
Government and civil society, monitoring the effectiveness and accountability of Pakistani agencies will
become increasingly important.




                                                            
6
  Attachment to letter from Senator John F. Kerry (Chairman of the Senate Committee on Foreign Relations) to Special
Representative for Afghanistan and Pakistan Richard Holbrooke, May 25, 2010.
7 Senator Richard Lugar, “Still Partners: Pakistan Needs U.S. Help Now More Than Ever,” Foreign Policy.com, May 6, 2010.
8 Letter from Special Representative for Afghanistan and Pakistan Richard Holbrooke to Senator John F. Kerry, June 14, 2010.



                                                                                                                          5
                                             Figure 1. Map of Pakistan




Source: USAID’s Office of Transition Initiatives, Geographic Information Unit




                                                                                6
Program Status
The U.S. departments and agencies delivering development assistance in Pakistan are implementing,
designing, and negotiating programs to implement the strategies that support Title I of the Enhanced
Partnership with Pakistan Act. An overview of the status of current and new programs is provided in
the following sections.

The U.S. Embassy reports that as of June 30, 2010, $2.141 billion in FY 2009 and 2010 funds have been
obligated to support the civilian assistance strategy (Table 2). Expenditure information corresponding to
these obligations was not provided.

                        Table 2. Program Financial Status as of June 30, 2010
                                      ($ Millions; Unaudited)

                                                                                                  FY 2009
                                                    FY 2009        FY 2010         Total
         Program                   Manager                                                       and Prior
                                                   Obligations    Obligations    Obligations
                                                                                                 Pipeline*
High-Impact, High-Visibility Programs
International Trade          U.S. Department of
                                                          0.8          0.8             1.6           1.6
Administration               Commerce
Foreign Agriculture          U.S. Department of
                                                        44.0            –             44.0          20.0
Programs                     Agriculture
USAID Transfer to U.S.
Trade and Development        USTDA                        5.0          5.0            10.0           4.8
Agency (USTDA)
                             Narcotics Affairs
FATA Roads/Bridges           Section (NAS), U.S.        15.0            –             15.0          14.4
                             Embassy Islamabad
FATA Roads (SWAT, Ring-
                             NAS                        40.0            –             40.0          40.0
Road)
Energy                       USAID                     125.0            –            125.0          93.1
Economic Growth              USAID                     172.0            –            172.0         277.0
Agriculture                  USAID                      95.0            –             95.0             –
Subtotals                                              496.8          5.8           502.6         450.9
Focused Humanitarian and Social Services
                             Political Affairs
Mine Action (Response
                             Section (POL), U.S.          0.5           –              0.5           0.2
International)
                             Embassy Islamabad
Health/Water                 USAID                     102.0            –            102.0          84.9
Education                    USAID                     163.5         64.5            228.0         262.8
Humanitarian Assistance      USAID                     209.0         75.0            284.0         152.7



                                                                                                       7
                                                                                                    FY 2009
                                                          FY 2009       FY 2010        Total
            Program                   Manager                                                      and Prior
                                                         Obligations   Obligations   Obligations
                                                                                                   Pipeline*
Humanitarian Programs
(Office of Foreign Disaster     USAID                       105.8          1.8          107.6         17.0
Assistance)
Health                          USAID                         33.5         0.0           33.5           –

World Food Programme            USAID                         55.4        98.3          153.7           –
USAID Transfer to UN                                                                                    –
                                United Nations                 1.0          –             1.0
Bhutto Commission
Humanitarian Assistance in
                                U.S. Department of
FATA (Department of                                            0.1          –             0.1          9.9
                                State
Defense)
                                U.S. Department of
Mitigating Child Labor                                          –          4.0            4.0           –
                                Labor
Trafficking in Persons          POL                            0.5          –             0.5          0.4
Pakistan Internally Displaced                                                                           –
                                POL                          59.6           –            59.6
Persons
Afghan Refugees                 POL                          80.9           –            80.9           –
                                Public Affairs Section                                                  –
Fulbright                       (PAS), U.S. Embassy          19.5         19.5           39.0
                                Islamabad
Other Exchanges                 PAS                          35.0         30.0           65.0           –
Public Diplomacy Operating                                                                              –
                                PAS                           2.0          2.0            4.0
Expenses
Subtotals                                                   868.3       295.1          1163.4       527.9
Government Capacity Improvement
Drug Enforcement                Drug Enforcement
                                                              1.5            1.5          3.0           –
Programs                        Administration
                                Department of
Energy Programs                                              66.6           94.2        160.8         47.4
                                Energy
Department of Homeland
Security (DHS)/Immigration      DHS                           1.1            1.1          2.2           –
& Customs Enforcement
Federal Bureau of
Investigation (FBI)/Legal       FBI                           1.0            1.8          2.8          1.3
attaché
Democracy, Human Rights,
                                POL                             –                –          –          2.2
Labor
Democracy—National
                                POL                             –                –          –           –
Endowment for Democracy
Counternarcotics                NAS                           3.0                –        3.0          5.6
Border Security (Aviation)      NAS                          37.0                –       37.0         35.9
Border Security
                                NAS                           0.2                –        0.2          6.3
(Commodities, Training)
Police/Law Enforcement
Training/Rule of Law            NAS                          51.0                –       51.0         70.1



                                                                                                         8
                                                                                                      FY 2009
                                                      FY 2009         FY 2010          Total
         Program                    Manager                                                          and Prior
                                                     Obligations     Obligations     Obligations
                                                                                                     Pipeline*
Demand
                             NAS                            0.5               –            0.5            1.2
Reduction/Awareness
Program Development and
                             NAS                            9.8             2.0           11.8            1.0
Support
                             Regional Security
Counterterrorism             Office, U.S. Embassy          11.8               –           11.8            0.2
                             Islamabad
                             Economic Affairs
Biosecurity Engagement       Section, U.S. Embassy         12.5            15.0           27.5           17.1
                             Islamabad
U.S. Institute for Peace
                             USIP                             –             0.9            0.9            0.3
(USIP)
Democracy/Governance         USAID                         50.0               –           50.0           49.8
Office of Transition
                             USAID                         68.0               –           68.0           32.9
Initiatives
Subtotals                                                314.0           116.5          430.5          271.3
Other Programs
                             U.S. Department of
Strategic Communications                                    7.0             7.0           14.0              –
                             Defense
Strategic Communications     PAS                           30.9               –           30.9              –
Subtotals                                                  37.9             7.0           44.9              –
Totals                                                 1,717.0           424.4         2,141.3       1,250.1
* At the request of U.S. Embassy Islamabad, pipeline data are included that capture unspent funds from FY 2009
back to FY 2002. These data are not comparable to FY 2009 and 2010 obligations or accurate indicators of
expenditures for those years.

Source: U.S. Embassy Islamabad


High-Impact, High-Visibility Infrastructure Programs

As the name implies, this category of assistance is intended to make a big difference in the Pakistani
economy, a difference that improves people’s livelihoods quickly, noticeably, and directly. The sectors in
which infrastructure programs are most critical are energy and agriculture—energy because all
businesses rely on it, and agriculture because it employs 60 percent of the population and consumes
90 percent of the country’s water. Chronic shortages of both power and water limit economic growth,
as does inadequate infrastructure for agroenterprise. In the energy sector, the U.S. Government has
joined international financial institutions and other international donors to rehabilitate infrastructure,
improve the management and oversight of power distribution, diversify energy sources, and reform
energy policy. In the agricultural sector, the U.S. Government focuses on improving water storage,
canals, and irrigation services, as well as on expanding cold storage facilities to boost agricultural
exports. Such programs are supported by USAID, the U.S. Department of Agriculture (USDA), the U.S.
Department of Commerce (DOC), and the U.S. Embassy’s Public Affairs Section (PAS).


                                                                                                            9
USAID has nine high-impact, high-visibility infrastructure programs under way, six of which began this
quarter. USAID’s new infrastructure programs seek to construct a Parliamentary Institute and to assist
the Government of Pakistan in supplying thermal and hydropower to meet growing energy demands.
The four new energy infrastructure programs were designed to rehabilitate thermal power plants in
Jamshorro, Muzaffargarh, and Guddu and to rehabilitate and repair the Tarbela hydropower plant.

In addition to current programs, USAID has 13 programs planned under the infrastructure category.
These programs will address water supply and sanitation, water management, irrigation systems, and
energy generation. Table 3 lists USAID’s current and planned programs.

      Table 3. USAID’s High-Impact and High-Visibility Programs as of June 30, 2010

          Implementing Partner                         Program Description                        Status
                                                South Waziristan Quick Impact
Government of Pakistan                                                                    Current
                                                Program (road, water, and electricity)
                                                Malakand Quick Impact Program
Government of Pakistan                          (schools, health, water and sanitation,   Current
                                                government capacity)
Habib-Rafique (Pvt.) Ltd.                       Construction of Parliamentary Institute   Current; signed 4/2010

Ministry of Water and Power (MWP), Power        Rehabilitation of thermal plant in
                                                                                          Current; signed 5/2010
Generation Company (GENCO I)                    Jamshorro
                                                Rehabilitation of thermal plant in
MWP (GENCO II)                                                                            Current; signed 5/2010
                                                Muzaffargarh
                                                Rehabilitation of thermal plant in
MWP (GENCO III)                                                                           Current; signed 5/2010
                                                Guddu
                                                Irrigation Tube Well Efficiency
Multan Electric Power Company                                                             Current
                                                Improvement Project
Water and Power Development Authority           Tarbela Hydropower Plant
                                                                                          Current; signed 4/2010
(WAPDA)                                         Rehabilitation and Repair
                                                Development of a model and
                                                implementation plan for the
Knowledge Platform, SMC-PVT, Limited                                                      Current; signed 4/2010
                                                transformation of the agricultural
                                                supply chain in the District of Swat.
                                                Water supply and sanitation programs
To Be Determined                                                                          Designing
                                                in Jacobabad and Peshawar
Government of Pakistan, MWP, National
                                                Distribution Companies Performance
Electric Power Regulatory Authority, Ministry                                             Under solicitation
                                                Improvement Program
of Finance, Distribution Companies
Government of Pakistan                          Wana Power Station                        Designing
Government of Pakistan                          Gomal Zam Dam                             Designing
Government of Pakistan                          Satpara Dam Skardu                        Designing
Pakistani organizations                         Pakistan energy contract                  Designing
                                                High-Efficiency Irrigation Systems
Government of Pakistan                                                                    Designing
                                                (HEIS)


                                                                                                               10
           Implementing Partner                      Program Description                   Status
WAPDA, Pakistan Agriculture Research
                                            Balochistan Surface Water
Council, and Balochistan Provincial                                                Designing
                                            Management Program (Agriculture)
Government
Provincial Relief, Rehabilitation and       Swat/Buner Agricultural Village
                                                                                   Designing
Settlement Authority                        Progress Program
                                            South Punjab, DG Khan Surface Water
WAPDA                                                                              Designing
                                            Management (Agriculture)
                                            South Waziristan, DI Khan Irrigation
WAPDA                                                                              Designing
                                            (Agriculture)
Government of Pakistan                      Gomal Zam Irrigation (Agriculture)     Designing
                                            Khyber Pakhtunkhwa Water Program
Government of Pakistan                                                             Designing
                                            (Agriculture)

Source: USAID/Pakistan

In response to USAID OIG’s request for information on the progress of these programs, USAID
provided indicators and targets but no information on progress toward achieving targets. This
information will be available when USAID begins to track actual results achieved on its performance
indicators. We believe that USAID has an imperative to accumulate, analyze, and report information on
the results achieved under its programs.

The following are the performance indicators and FY 2010 targets highlighted in USAID’s response:

•   Number of energy agencies, regulatory bodies, utilities, and civil society organizations undertaking
    capacity strengthening as a result of U.S. Government assistance (target: 30).

•   Number of policy reforms, procedures, and regulations drafted for areas of tariff rationalization,
    utility cost of service, and renewable energy policy (target: 10).

•   Number of energy agencies, regulatory bodies, utilities, and civil society organizations undertaking
    capacity assessments as a result of U.S. Government assistance (target: 25).

•   Number of producer organizations, water user associations, trade and business associations, and
    community-based organizations receiving U.S. Government assistance (target: 7,200).

•   Number of additional hectares under improved technologies or management practices as a result of
    U.S. Government assistance (target: 15,000).

•   Number of rural       households    benefiting   directly   from   U.S.   Government    interventions
    (target: 500,000).

•   Number of new technologies or management practices under research as a result of U.S.
    Government assistance (target: 5).


                                                                                                      11
USAID reports that it has signed a $9.3 million contract with Habib Rafique Private Limited, a Pakistani
construction firm, to build the Parliamentary Institute. The institute will be a professional development
training and research center devoted to providing legislative support services to the national Parliament
and provincial assemblies. USAID also reports progress in implementing its $125 million signature
energy infrastructure program. USAID works directly with the Government of Pakistan’s Water and
Power Development Authority in refurbishing 3 thermal power stations and 1 hydroelectric dam,
improving at least 4 electricity distribution companies, and replacing inefficient pumps on 11,000 tube
wells. Nonetheless, although progress has been made in engaging Pakistani Government partners in the
implementation of the $125 million signature energy infrastructure program, USAID reports that it has
had difficulty transferring funds for these activities to the Government of Pakistan: USAID’s intention
had been to reimburse the Government of Pakistan after completion of the work, but the Pakistani
Government lacks the resources to carry out the activities.

As reported in the first quarterly report, USDA plans to make a $30 million Food for Progress grant to
a U.S.-based nongovernmental organization (NGO) to implement a new Pakistan Agriculture and Cold
Chain Development Project. The project aims to help modernize agriculture in the Balochistan
Province of southwest Pakistan by linking private sector participants in the production of perishable
goods with new cold-chain facilities 9 and enhanced production techniques. Implementing international
phytosanitary and regulatory standards will also help shift horticultural and fish production toward
larger, more profitable markets. By carrying out these activities, the project seeks to improve food
quality and supply, support higher prices for producers, and ensure a higher-value end product to
consumers. USDA is still negotiating this grant. The time-consuming negotiation and clearance process
for the program will probably delay the start of implementation until the fall of 2010.

Additionally, USDA’s plan for the investment of resources to support agricultural development in
Pakistan has been reviewed and approved by an interagency team and the U.S. House of Representatives
Committee on Appropriations. Concept notes have been shared with Pakistani and international
partners, and program design will begin shortly.

The DOC supports programs in Pakistan that are focused on trade and investment promotion,
commercial law development, and professional development activities and workshops. During the
reporting period, DOC’s program accelerated appreciably. The Department produced a terms-of-
reference document, solicited expressions of interest, obligated $100,000 for specialized market
research to support investment promotion activities, and obligated $35,000 for sector studies.
Additionally, DOC worked to structure a contract to provide services in support of eight conferences
and investment missions to take place over the next 17 months.

The Public Affairs Section (PAS) of the U.S. Embassy carries out the Pakistan Communications and Public
Diplomacy Strategy. Two communications programs in the category of high-impact, high-visibility
infrastructure programs include the reestablishment of three public diplomacy centers and
approximately $10 million toward electronic governance infrastructure. Secure, open-access public

                                                            
9
    Cold-chain facilities keep goods such as food at a controlled temperature at all stages of storage and distribution.


                                                                                                                           12
diplomacy facilities in Islamabad, Karachi, and Lahore will be reopened and used for outreach to young
Pakistanis. The electronic governance infrastructure being discussed with the Ministry of Information
Technology under the United States-Pakistan strategic dialogue will both provide the Government of
Pakistan with needed IT infrastructure and enable electronic public services.

Focused Humanitarian and Social Services: Immediate Postcrisis and
Humanitarian Assistance
 
The U.S. Government channels assistance through international relief agencies and local institutions for
people affected by natural disasters or ongoing military operations in Waziristan and other areas along
the border with Afghanistan. In addition, the U.S. Government supports the Government of Pakistan’s
efforts to provide basic health, education, and other services; rehabilitate infrastructure; and create jobs.
USAID manages the largest U.S. Government humanitarian assistance programs in Pakistan, while the
Department of Defense manages some relatively small food and medical assistance programs.

USAID has 23 programs under way to support immediate postcrisis and humanitarian assistance. These
programs include provisions for emergency food aid, primary health care in earthquake-affected areas,
community rehabilitation, and cash transfers for income support as well as for housing damage in the
Federally Administered Tribal Areas (FATA) and Khyber Pakhtunkhwa. USAID also has small-scale
infrastructure development projects in FATA and Khyber Pakhtunkhwa.

Along with current programs, USAID is planning three additional programs for FY 2010. These include
the establishment of a multidonor trust fund to finance infrastructure and livelihood development in
FATA, Khyber Pakhtunkhwa, and Balochistan; cash transfers to IDPs for housing damage; and a conflict
assistance program to be carried out by local and international organizations. Table 4 lists USAID’s
current and planned programs for postcrisis and humanitarian assistance.

  Table 4. USAID’s Postcrisis and Humanitarian Assistance Programs as of June 30, 2010

  Implementing Partner                       Program Description                             Status
World Food Programme           Emergency operation in Pakistan                     Current
Khushhali Bank Limited         Bolton Market Business Revitalization Program       Current
World Food Programme           Food Security Relief Program in Pakistan            Current
                               Cash transfer to support vocational education,
Higher Education Commission    scholarships, and infrastructure improvements at    Current; disbursed 4/2010
                               selected universities
                               South Waziristan Agency Monitoring and Evaluation
Associates in Development                                                          Current
                               Contract
CHF International, Inc.        Livelihood Development Program in lower FATA        Current
Development Alternatives,
                               Capacity building in FATA                           Current
Inc.
                               Cash transfer to assist IDPs in Khyber
Government of Pakistan                                                             Current
                               Pakhtunkhwa—disbursed 11/2009



                                                                                                          13
  Implementing Partner                         Program Description                                Status
                                 Road and electricity infrastructure in South
FATA Secretariat                                                                        Current
                                 Waziristan
                                 Budget support to Benazir Income Support
Government of Pakistan                                                                  Current
                                 Program—cash transfer disbursed 2/2010
                                 Postconflict reconstruction of Malakand (water,
Khyber Pakhtunkhwa
                                 education, health, government capacity)—project        Current
Provincial Government
                                 implementation letter signed 12/2009
Provincial Reconstruction,
                                 Cash transfer for housing damage assistance for
Rehabilitation and Settlement                                                           Current
                                 Khyber Pakhtunkhwa and FATA
Authority
Pakistan Broadcasting
                                 Radio transmission support to FATA                     Current
Corporation
InterNews (Office of
                                 Pakistan Transition Initiative—media                   Current
Transition Initiatives)
                                 Pakistan Transition Initiative—small-scale
Creative Associates              infrastructure in northern FATA and Khyber             Current
                                 Pakhtunkhwa
International Organization for   Pakistan Transition Initiative—small-scale
                                                                                        Current
Migration                        infrastructure in southern FATA
                                 Primary Healthcare Revitalization, Integration and
International Rescue
                                 Decentralization in Earthquake-Affected Areas          Current
Committee
                                 Program
CDM Constructors, Inc.           Pakistan Reconstruction Project                        Current
American Institutes for          Revitalizing, Innovating, Strengthening Education
                                                                                        Current
Research                         Program
Khushhali Bank Limited           Bolton Market Business Revitalization Program          Current
                                 Improving Livelihoods and Economic Development
CNFA, Inc.                                                                              Current
                                 Program
                                 CRISP: Community Rehabilitation Infrastructure
Winrock International                                                                   Current
                                 Support Program
                                 Accelerated capacity building of Provincial Relief,
KPMG Taseer Hadi                                                                        Current
                                 Rehabilitation and Settlement Authority
                                 Multidonor Trust Fund: financing Government of
                                 Pakistan priorities in infrastructure and livelihood
World Bank                                                                              Negotiating
                                 development in Khyber Pakhtunkhwa, FATA, and
                                 Balochistan
International and local
                                 Pakistan Conflict Assistance Program                   Negotiating
organizations
                                 Malakand Housing for IDPs—cash transfer for
Government of Pakistan                                                                  Negotiating
                                 housing damage assistance

Source: USAID/Pakistan


In response to our request for information on program progress, USAID gave examples of indicators
that will be used to measure the progress of its postcrisis and humanitarian programs. Information on


                                                                                                           14
progress will be available when targets are set and progress is tracked. USAID provided the following
illustrative indicators for this area of assistance:

•   Number of beneficiaries assisted by U.S. Government-supported protection and solutions activities
    (target: no data).

•   Percentage of disaster-affected households provided with basic inputs for survival, recovery, or
    restoration of productive capacity (target: no data).

•   Percentage of U.S. Government-assisted communities that have constructed or developed physical
    infrastructure to mitigate the effects of shocks (target: no data).

•   Reconstruction of educational and health facilities (start of new construction) (target: 23).

•   Percentage change in rural income of targeted population with U.S. assistance (target: no data).

•   Number of buildings completed (target: 42).

According to USAID, delays on the part of the Pakistani Government prevented timely transfer of
$174 million in direct budget support to the Government of Pakistan from 2009 emergency
supplemental funding. These delays reduce the effectiveness of emergency budget support and
jeopardize subsequent budget support payments.

Oversight Results

During the period covered by this report, USAID OIG completed one performance review of
postconflict, humanitarian assistance activities. The review sought to determine the status of USAID’s
activities for IDPs in Pakistan. USAID OIG conducted this review concurrently with the DOS OIG’s
review of the DOS program for IDPs implemented by the Office of the United Nations High
Commissioner for Refugees (which is still in process). In conducting the review, USAID OIG found that
although USAID has carried out numerous programs for IDPs in Pakistan, monitoring and evaluation
methods need improvement. Specifically, USAID’s “alternative monitoring” methods—such as third-
party monitoring—were underutilized in dangerous areas such as Khyber Pakhtunkhwa and FATA. In
addition, USAID had not implemented monitoring controls that were meant to provide reasonable
assurance that $44 million in cash transfer funds had actually reached 140,000 displaced families. USAID
OIG made four recommendations to address these issues and to rectify monitoring and evaluation
weaknesses. USAID OIG recommends that USAID/Pakistan (1) develop and award a contract for the
monitoring and evaluation of the program for IDPs and other programs, (2) require the Government
of Pakistan to provide documentation of cash transfers to IDPs, (3) verify the cash transfers, and (4)
conduct spot checks to evaluate the effectiveness of the cash transfer program.




                                                                                                       15
Focused Humanitarian and Social Services: Increased Access to and
Quality of Education and Health Services

This category of assistance aims to provide quality education and health services to underserved
populations, particularly those living in areas likely to come under the sway of extremist groups. In
education, programs intend to bring more girls into the classroom, increase the use of new educational
technologies, and improve teachers’ skills. In health care, the goals are to improve maternal and child
care, provide family planning services, and prevent and treat diseases such as hepatitis, polio, and
tuberculosis. USAID is the primary U.S. Government agency contributing to this area of assistance.

USAID, USDA, and the U.S. Embassy’s PAS manage education and health assistance programs. USAID’s
current and planned programs aim to increase access to and quality of education and health services,
USDA is planning two grants for food programs for schoolchildren, and the U.S. Embassy PAS manages
education exchange programs.

USAID has 24 programs under way to support increased access to and quality of education and health
services. These programs focus on educational improvement in the provinces of Balochistan and Punjab
and the provision of Fulbright scholarships through DOS. USAID also supports health programs to
improve children’s health in FATA, improve maternal health, and aid in polio eradication.

In addition to its current programs, USAID is planning 18 new programs for education and health
assistance. Of these, one award is under solicitation for a Pakistani organization to carry out health
monitoring; 11 programs are in the design phase; and the remaining 6 programs planned for FY 2010 are
being negotiated. Table 5 lists USAID’s current and planned programs for health and education.

     Table 5. USAID’s Programs for Education and Health Services as of June 30, 2010

Implementing Partner                           Program Description                              Status

ABT Associates              Pakistan Safe Drinking Water and Hygiene Project              Current

JSI Research and Training
                            Pakistan Initiative for Mothers and Newborns                  Current
Institute
Population Council          Diversification of family planning activities                 Current
Contraceptive
Commodities                 Procurement of pharmaceuticals and commodities                Current
Procurement
                            Social mobilization and communication for polio eradication
UNICEF                                                                                    Current
                            project in FATA
                            Polio eradication initiative through UNICEF public
UNICEF                                                                                    Current
                            international organization grants
World Health                Polio eradication initiative through WHO public
                                                                                          Current
Organization                international organization grants

KNCV Tuberculosis
                            Tuberculosis Control Assistance Program                       Current
Foundation


                                                                                                         16
Implementing Partner                         Program Description                                  Status
John Snow, Inc.            DELIVER Project                                                 Current

                           Involvement of religious leaders in health and development,
Pathfinder International                                                                   Current
                           extending service delivery

Centers for Disease        Pakistan Field Epidemiology and Laboratory Training
                                                                                           Current
Control and Prevention     Program

                           Developing and strengthening institutional capacity in Public
Health Services Academy                                                                    Current
                           Health Training and Research Project

Save the Children          Improve children’s health in FATA                               Current

Academy for Educational    Higher Education Commission—Financial Aid Development
                                                                                           Current
Development                Program

Academy for Educational
                           Pre-Service Teacher Education Program                           Current
Development

American Institutes for
                           Links to Learning—Education Support to Pakistan                 Current
Research
American University
Washington College of      Collaborative capacity building for human rights and gender     Current
Law
Rafi Peer Theatre          Children's Global Network—interactive teaching and
                                                                                           Current; signed 5/2010
Workshop                   learning television program
Government of Pakistan     Budget support to Higher Education Commission                   Current
Government of Pakistan     Fulbright scholarships (through DOS)                            Current
UNESCO                     Strengthening Teacher Education Program                         Current

Higher Education
                           Merit and Needs-Based Scholarships Program                      Current
Commission

Government of Pakistan     Balochistan middle schools (budget offset)                      Current

Government of Pakistan     Punjab education sector grant                                   Current

National Institute of
                           Demographic and Health Survey                                   Negotiating
Population Studies
Government of Pakistan
Ministries, local          Universities and teaching hospitals                             Designing
organizations

Government of Pakistan     Two water and sanitation activities                             Designing

                           Maternal and child health, family planning, and
Government of Pakistan                                                                     Designing
                           immunizations
Government of Pakistan     Hospitals and laboratories                                      Designing

Government of Pakistan     Disease surveillance                                            Designing



                                                                                                              17
Implementing Partner                         Program Description                             Status
Pakistani organization     Health Monitoring Implementation Program                   Under solicitation
Government of
                           Provincial Government Education Program                    Designing
Balochistan
                           Balochistan education sector—upgrading primary to middle
Government of Pakistan                                                                Negotiating
                           schools

Government of Sindh        Provincial Government Education Program: Sindh             Designing

Government of Punjab       Provincial Government Education Program: Punjab            Negotiating
Government of Pakistan     Fulbright scholarships (extension)                         Designing
FATA Secretariat           FATA education                                             Designing
Higher Education
                           Strengthening higher education (budget support)            Designing
Commission

Government of Pakistan     Khyber Pakhtunkhwa education sector                        Designing

Government of Pakistan     University Centers of Excellence (partial)                 Negotiating
Forman Christian College   Forman Christian College                                   Negotiating
                           Lahore University of Management Sciences Educational
Lahore University                                                                     Negotiating
                           Outreach Program for Youth
Source: USAID/Pakistan

USAID identified the following indicators (with FY 2010 targets) to be used in monitoring and evaluating
its education programs:

•   Number of administrators and officials trained (target: 2,500).

•   Number of teachers/educators trained with U.S. Government support (target: 15,000).

•   Number of textbooks and other teaching and learning materials provided with U.S. Government
    assistance (target: 1 million).

•   Number of laws, policies, regulations, or guidelines developed or modified to improve equitable
    access to or the quality of education services (target: 2).

•   Number of host-country individuals receiving U.S. Government-funded scholarships to attend higher
    education institutions (target: 850).

•   Number of host-country individuals completing U.S. Government-funded exchange programs
    conducted through higher education institutions (target: 50).

Health-related indicators to be tracked, shown with annual targets, include:

•   Number of people trained in maternal or newborn health and nutrition through U.S. Government-
    supported health area programs (target: 2,500).


                                                                                                           18
•   Number of children reached by U.S. Government-supported nutrition programs (target: 60,000).

•   Number of people trained in family planning and reproductive health with U.S. Government funds
    (target: 3,470).

•   Number of U.S. Government-assisted service delivery points experiencing stockouts at any time
    during the reporting period of contraceptives offered by the delivery point (target: 50 percent).

•   Number of people in target areas with access to improved drinking water supply as a result of U.S.
    Government assistance (target: 1.1 million).

•   Number of households demonstrating improved hand-washing practices with U.S. Government
    assistance (target: 3,470).

USAID provided the following examples of success in its programs for basic education, vocational
training, and higher education—all of which support increased access to and quality of education
services:

•   The USAID Ed-Links Program, a basic education program, supplied learning materials to 60,000
    students and teaching materials to 150 schools in Malakand.

•   Through the TRADE Project, USAID trained 100 female entrepreneurs in Lahore, Karachi, and
    Peshawar. Sixty women from the University of Peshawar and the University of Arid Agriculture in
    Rawalpindi graduated from an employment-skills training course through the USAID JOBS Project.
    Also under the JOBS Project, 80 young Pakistanis completed the Vital Job Skills and Placement
    Program, which focused on the pharmaceutical and call-center industries. Moreover, the private
    sector has committed to creating 450 positions under the Vital Job Skills and Placement Program;
    approximately 50 percent of graduates have been placed in these positions. This vocational
    education program is being expanded in Peshawar, Karachi, and Lahore.

•   USAID provided a $45 million donation to the Higher Education Commission to support 28 partner
    universities primarily in conflict-affected areas of Khyber Pakhtunkhwa. The donation also provides
    a year’s tuition for 7,000 university students from these areas.

•   Eighty-four scholarships to three partner universities were awarded under the Merit and Needs-
    Based Scholarship Program. The activity provided 1,407 scholarships in business and agriculture to
    poor and needy students to study at 11 partner universities.

In addition, USAID provided the following examples of success in its programs supporting increased
access to and quality of health services:

•   The USAID Family Advancement for Life and Health Project conducted 12 mobile health clinics in
    three districts in collaboration with the Pakistan Works Department. The clinics treated 867
    women and children including 82 family planning clients.


                                                                                                    19
•   Through the PAIMAN Project, USAID provided medical equipment worth $50,000 to 47 newly
    graduated community midwives in D.G. Khan District.

•   USAID sent more than 42,000 antipolio teams to 52 districts, where they vaccinated 16 million
    children. Despite the several National Immunization Days that USAID supports each year, Pakistan
    remains one of four countries in the world where polio is still endemic.

•   The first shipment of 3.2 million condoms for the National AIDS Control Program and the Lady
    Health Workers Program of the Ministry of Health arrived in May 2010. This marks the first time
    USAID has provided the Government of Pakistan with condoms for contraception and the
    prevention of HIV and sexually transmitted infections. USAID’s support of $10 million in
    commodities will fill 50 percent of the Government of Pakistan’s shortage.

Still, USAID faces challenges in this assistance category. USAID identified two recent actions by the
Government of Pakistan that may directly affect its health and education programs—a budget reduction
for Pakistan’s Ministry of Health and the passage of a constitutional amendment that leaves the future
role of the Ministry of Education unclear.

•   In June 2010, the Pakistan Finance Ministry announced a possible 24-percent reduction in the
    FY 2010–11 Ministry of Health budget. Pakistan’s expenditure for health is 0.5 percent of gross
    domestic product—one of the lowest in the world. The allocations for health are insufficient,
    particularly given the current inflation rate of 38 percent. A reduction in the budget could weaken
    USAID’s Lady Health Workers Program, as well as programs promoting maternal and child health
    and expanded immunizations.

•   The passage of the 18th Amendment to Pakistan’s Constitution has created an unclear role for the
    Ministry of Education, as more decision-making authority has been devolved to the provinces. Prior
    to the amendment, USAID/Pakistan worked independently with provinces and the Ministry of
    Education. The new amendment poses challenges to USAID in coordinating programming between
    provinces and the Ministry of Education.

As stated in our first quarterly report, USDA has one program—the USDA Food for Education
Program—that supports increased access to and quality of education and health services. Under the
program, USDA awarded Land O’Lakes and the World Food Programme grants totaling an estimated
$15.8 million. Under these two grants, USDA will supply an estimated 6,540 metric tons of
commodities to feed schoolchildren and an estimated $5.9 million to implement rehabilitation projects
and capacity-building measures for schools. During the reporting period, USDA was negotiating these
grants and now seeks to conclude negotiations in the coming months. USDA expects to begin program
implementation in fall 2010.

The U.S. Embassy’s PAS has two programs that contribute to increased access to and quality of
education services. PAS has a $30 million slate of academic and professional exchange programs
designed to provide enhanced educational and professional skills, leadership training, and connections
with the United States for up to 2,000 Pakistanis over the next year and a half. Programs range from

                                                                                                    20
short-term (3-week) International Visitor Leadership Program exchanges to full academic degree
programs. Additionally, PAS supports a $19.5 million program of Fulbright exchanges designed to
substantially increase the number of faculty with master’s degrees and doctorates at Pakistani colleges
and universities.

Oversight Results

During the reporting period, USAID OIG completed one performance audit in this assistance category.
The audit of USAID/Pakistan’s Primary Healthcare Revitalization, Integration and Decentralization in
Earthquake-Affected Areas Project sought to determine whether the project had improved access to
and the quality of primary health care services in the earthquake-affected areas. The audit found that
the project had contributed to higher-quality health care by implementing a standards-based
management approach, developing guidelines for performance improvement, supporting community
participation in health care governance, renovating drug storage facilities, and providing training and
mentoring.

Nonetheless, a great deal of work remains to be done to improve access to health care services—
particularly to higher-level care facilities for patients with conditions that cannot be treated at primary
health care facilities. Preliminary planning for improving the referral system was completed a year later
than anticipated, and implementation of an improved referral system was not expected until June 2010.
Implementation was delayed because Pakistani Government staff scheduled to work with the project
implementer were not available when needed. Also, other project activities took precedence over
revamping the patient referral system.

The report recommends that USAID/Pakistan develop and begin to implement an action plan to
improve the patient referral system in both project districts. The plan should include provisions to (1)
establish proper communication procedures between primary health care centers and higher level
facilities, (2) disseminate improved procedures to participating facilities and provide training as
necessary, and (3) establish effective supervisory review of referral cases. USAID/Pakistan concurred
with this recommendation.

Government Capacity Development: Improved National and
Local Governance

Programs in this category are intended to build capacity at the national, provincial, and local levels—
particularly in vulnerable districts—in budgeting and program management, revenue collection, the
organization of civil society groups and political parties, parliamentary oversight of the executive branch,
and the conduct of elections.

USAID, USDA, and the U.S. Embassy’s PAS have current and planned programs to strengthen
government capacity and improve governance.

USAID has nine programs under way to improve government capacity at the national and local levels.


                                                                                                         21
USAID’s programs support improvements in governance through legislative strengthening and election
support. At the provincial and local levels, USAID programs also seek to build capacity in institutions
such as the FATA Secretariat and in local civil society organizations.

USAID is planning an additional 13 programs to improve national and local governance. These programs
will provide election support, civil society support, and small grants to Pakistani organizations;
parliamentary and judicial strengthening programs to the Pakistani Government; and assistance to
provincial governments to improve municipal services. Additionally, USAID is negotiating an antifraud
hotline and fraud awareness program with Transparency International/Pakistan. Table 6 shows the
status of programs under way or planned.

            Table 6. USAID’s Programs to Improve National and Local Governance
                                    as of June 30, 2010

     Implementing Partner                           Program Description                          Status

Ernst and Young/Pakistan                Strengthen capacity of the FATA Secretariat      Current; signed 4/2010
Provincial Relief, Rehabilitation and
                                        Accelerated capacity building                    Current
Settlement Authority
Development Alternatives, Inc.          Legislative Strengthening Program (Phase II)     Current
International Foundation for
                                        Pakistan Election Support Program II             Current
Electoral Systems
The Urban Institute                     Districts That Work Program                      Current

Government of Pakistan                  Local democratic governance municipal services   Current

Transparency International-Pakistan     Anticorruption program                           Current

Deloitte Consulting, LLC                USAID Pakistan Trade                             Current

U.S. Department of State (DOS)          Media and strategic communications               Current

Pakistan Election Commission            Election Support Program                         Designing

U.S. organization                       Election monitoring support                      Designing

Pakistani organizations                 Gender equity grants                             Negotiating

Pakistani organizations                 Small Grants Program for Unsolicited Proposals   Negotiating

Pakistani organization                  Chief of Mission Fund                            Negotiating

Pakistani NGOs                          Civil Society Support Program                    Pre-solicitation stage

Pakistani Provincial Courts             Court efficiency                                 Designing



                                                                                                              22
     Implementing Partner                          Program Description                        Status

Pakistani National and Provincial
                                      Parliamentary strengthening                      Designing
Parliaments
                                      Judicial peer-to-peer exchange (participant
Pakistan Judiciary                                                                     Designing
                                      training)
Government of Khyber
                                      Enhancing Malakand government capacity           Designing
Pakhtunkhwa
Transparency International/Pakistan   Antifraud hotline                                Negotiating

Provincial Governments                Local democratic governance municipal services   Negotiating

U.S. organization                     Political parties strengthening                  Designing

Source: USAID/Pakistan


Although USAID has identified performance indicators and FY 2010 targets to measure the progress of
its capacity development programs for improved national and local governance, no results were
provided.

The following are the indicators and annual targets:

•   Number of national legislators and national legislative staff attending U.S. Government-sponsored
    training or educational events (target: 400).

•   Number of individuals who received U.S. Government-assisted training, including management skills
    and fiscal management, to strengthen local government or decentralization (target: 1,500).

•   Number of U.S. Government-assisted civil society organizations that participate in legislative
    proceedings or engage in advocacy with the national legislature and its committees (target: 2).

•   Number of elections officials trained with U.S. Government assistance (target: 700).

•   Number of laws or amendments to ensure credible elections drafted with U.S. Government
    technical assistance (target: 65).

•   Number of local civil society organizations strengthened that promote electoral reform or
    improvements in the electoral system (target: 29).

•   Number of electoral administration procedures and systems strengthened with U.S. Government
    assistance (target: 6).

According to USAID, the following examples illustrate some successes of its government capacity
development programs:


                                                                                                       23
•   USAID supports activities to strengthen the capacity of the FATA Secretariat and the Provincial
    Relief, Rehabilitation and Settlement Authority (PaRRSA). During the reporting period, the USAID
    agriculture team signed a memorandum of understanding to provide rapid job creation, skills
    training, and government capacity building in Malakand District to rehabilitate and revive micro and
    small enterprises in construction, fisheries, tourism, livestock, and horticulture. In May 2010,
    PaRRSA approved a list of medical equipment worth $440,000 for 17 basic health units in the Swat,
    Buner, and Lower Dir Districts of the Malakand Division from the USAID DELIVER Project.

•   Since the beginning of FY 2010, USAID/Pakistan has completed four cash transfers totaling
    $239 million to the Government of Pakistan. These cash transfers were provided to the Benazir
    Income Support Program to benefit lower-income families and to the Pakistan Higher Education
    Commission for vocational education, scholarships, and infrastructure improvements at selected
    universities. The transfers also support housing in Malakand Division and FATA.

USAID reported a potential problem with implementing activities for improved governance. For new
implementing partners, including Pakistani Government institutions and civil society (NGOs), and private
sector entities with which the mission engages, preaward surveys are required to verify that a
prospective partner can be entrusted with managing and accounting for U.S. Government funds. During
the next 6 to 18 months, the mission may be required to conduct as many as 100 preaward surveys and
postaward financial reviews of Pakistani institutions. According to the mission, the requirement to
conduct preaward and postaward reviews is causing delays in implementing activities.

As reported last quarter, USDA manages three types of programs to build Pakistani institutional capacity
in the agricultural sector:

•   Endowments are used to support agricultural research and development activities in accordance
    with Pakistan’s long-term development goals and to promote scientific cooperation between
    Pakistani and U.S. agricultural scientists. Since 2001, USDA has established six endowments totaling
    $55 million.

•   Technical assistance exchange programs are used to develop linkages between Pakistani scientists
    and their counterparts in the United States. USDA plans to expand the number and quality of
    exchanges between Pakistani and U.S. scientists to improve the capacity of Pakistan’s agricultural
    research system.

•   The Trilateral (Afghanistan-Pakistan-United States) Secretariat on Agriculture established three
    working groups: Food Security and Applied Research, Water Management, and Trade Corridors.
    According to USDA, the Secretariat has met and is finalizing budgets and detailed action plans for
    the first phase of project implementation.

The U.S. Embassy’s PAS supports government capacity development and improved local and national
governance through its communications programs. The PAS reported on two programs in this area of
assistance:


                                                                                                     24
•   Radio transmitter towers have been approved for implementation by Pakistan Broadcasting and the
    Ministry of Information. The towers will enhance the Pakistani Government’s ability to be heard
    throughout the Khyber Pakhtunkhwa and FATA and will cost approximately $7 million in total. The
    signing ceremony took place during the reporting period, and the equipment has been ordered for
    installation.

•   National and local elected officials and government employees will be invited to the United States
    for short-term visits or internships to meet with counterparts as part of an exchange program that
    strengthens partnerships and provides ideas for Pakistan based on American experiences.

Government Capacity Development: Improved Security and Legal
Institutions

Like capacity development in national and local governance, this category targets areas prone to conflict
and those with a weak government presence. Assistance focuses on improving policing and expediting
the disposal of legal cases through the court system.

The U.S. Embassy’s Narcotics Affairs Section (NAS), Regional Security Office (RSO), and Public Affairs
Section (PAS) support assistance programs to improve security and legal institutions in Pakistan.

As previously reported, NAS, in coordination with other U.S. law enforcement agencies in Pakistan,
manages five programs that support improved security and legal institutions. These programs address
counternarcotics and crop control, border security, roads and bridges in FATA and Khyber
Pakhtunkhwa, police and prosecutor training, and support for the Ministry of Interior’s Air Wing.
According to NAS, all of its projects are implemented in partnership with the Government of Pakistan,
and infrastructure projects use Pakistani contracting mechanisms.

In April 2010, NAS and the Government of Pakistan signed a letter of agreement authorizing
expenditure of $40 million in U.S. Government assistance funds for key infrastructure projects in
Khyber Pakhtunkhwa. Another letter that will allow NAS to spend $125.6 million in FY 2010 funding
was drafted and is pending clearance from the Pakistani Government.

To measure the progress of its programs, NAS identified lower-level performance indicators (input and
output indicators) and higher-level performance indicators (outcome indicators) that will be used:

•   Number of hours flown by the Air Wing under the aviation program.

•   Number of kilometers of road constructed and percentage of other infrastructure projects
    completed under the infrastructure program.

•   Number of law enforcement officials trained, number of police facilities reconstructed or
    rehabilitated, and amount of equipment delivered under the civilian law enforcement reform
    program.

                                                                                                      25
•   Number of prosecutors trained under the rule of law program.

•   Reduction in the number of hectares of poppy grown as a result of the counternarcotics program.

To date, NAS reports the following examples of progress:

•   $3.86 million of commodities (surveillance and communication equipment, bulletproof vests,
    armored personnel carriers) were delivered to the Khyber Pakhtunkhwa Elite Force.

•   12 kilometers of roads were constructed in or near the poppy-growing areas of Mohmand, Bajaur,
    Khyber, and Kala Dhaka.

•   130 Khyber Pakhtunkhwa Elite Force commanders completed training sponsored by DOS
    International Narcotics and Law Enforcement (INL) in human rights and the use of force and in
    civilian police leadership.

•   $ 218,000 was released to an NGO dedicated to reducing demand for drugs to conduct faith-based
    drug intervention programs in FATA and Khyber Pakhtunkhwa.

NAS reported that although the program had achieved some successes, bureaucratic delays have slowed
program implementation. Also, security problems continue, including the targeting of police facilities.
During the quarter, the names and vehicle license plate numbers of police trainers were published in the
media, and instructors were evacuated from their housing because of credible reports of surveillance.
Additionally, obtaining visas for police trainers and Air Wing personnel remains a challenge. According
to NAS and INL, the shortage of required personnel has resulted in the cancellation of eight training
courses and storage of three C-208 aircraft.

The RSO at the U.S. Embassy in Islamabad reported on antiterrorism assistance funded by the
Nonproliferation, Antiterrorism, Demining, and Related account. The Office of Antiterrorism
Assistance has provided antiterrorism assistance to the Government of Pakistan since 1983.

Antiterrorism assistance covers the full range of tactical and investigative courses and support to
Pakistani federal and provincial law enforcement agencies, especially those operating in Khyber
Pakhtunkhwa and Balochistan. According to the RSO, the goal is to assist Pakistani law enforcement
agencies at the federal and provincial levels in developing the institutional capacity to prevent, interdict,
and investigate terrorist activities. Program objectives for FY 2010, as identified by the RSO, are to:

•   Provide tactical training to law enforcement agencies operating in Khyber Pakhtunkhwa, Balochistan,
    and other provinces that will allow them to counter terrorist attacks.

•   Provide advanced tactical training to augment and enhance the abilities of tactical units operating in
    conflict zones throughout Pakistan, with emphasis on Khyber Pakhtunkhwa.



                                                                                                          26
•      Provide investigative and case management training to provincial and federal law enforcement
       agencies to increase their ability to conduct both proactive and after-the-fact investigations leading
       to the arrest, prosecution, and successful conviction of terrorist organizations operating in Pakistan.

The RSO reported that antiterrorism assistance training was postponed for 6 months because of
unspecified terrorist threats against its training academy and because the Government of Pakistan closed
an interim training site. Training for the Pakistani police resumed in June 2010. The antiterrorism
assistance program in Pakistan is proceeding with a plan to provide focused tactical, technical, and
investigative training to Pakistani Government law enforcement agencies at the provincial and federal
levels.

In addition to the programs sponsored by NAS, the U.S. Embassy PAS manages exchange programs that
include opportunities for Pakistani police, prosecutors, and lawyers to meet and work with their
counterparts in the United States, strengthening partnerships and exchanging ideas.

Assistance to Pakistani Institutions

The Enhanced Partnership with Pakistan Act of 2009 encourages the use of Pakistani firms and NGOs,
as appropriate, to implement the assistance programs authorized under Title I of the act
(Section 101(c)(3)). As noted in last quarter’s report, the purpose of this shift is to:

•      Align programs with locally identified priorities.

•      Build Pakistanis’ sense of ownership of programs.

•      Build Pakistani institutional and leadership capacity for better fiscal management.

•      Promote decentralization to more actively engage provincial and local partners and beneficiaries.

•      Deliver assistance on-budget 10 to promote transparency, harmonization, and better budget planning
       by the Government of Pakistan.

•      Reduce costs.

USAID’s Office of Financial Management performs preaward assessments of all prospective partner
organizations. The assessments examine organizational and management structure, accounting, financial
management systems, internal controls, technical capabilities, and quality assurance capabilities, as well as

                                                            
10
   Delivering U.S. assistance through Pakistan’s own budgetary, spending, and accounting systems as much as possible will help
the Government of Pakistan meet the fiscal targets required by the International Monetary Fund and raise Pakistanis’ awareness
of where U.S. funds are going and how they harmonize with resources from the Government of Pakistan and other donors.
On-budget assistance should also help to reduce disruptions in implementation by enabling federal and provincial governments
to improve budget planning and cash-flow management.


                                                                                                                           27
the organizations’ policies, procedures, and practices for effective and efficient management of
USAID/Pakistan resources.

USAID/Pakistan completed 12 preaward assessments during this quarter:

1. FATA Development Authority

2. National Rural Support Program

3. Balochistan Rural Support Program

4. Jamshorro Power Company Limited

5. Central Power Generation Company

6. Northern Power Generation Company

7. Rafi Peer Theatre Workshop

8. Basic Education for Awareness Reforms and Empowerment and Basic Education for Afghan Refugees

9. Competitiveness Support Fund

10. National Institute of Population

11. Pakistan Agricultural Research Council

12. State Bank of Pakistan

In addition to performing the assessments, the Office of Financial Management provides capacity building
for new partners, prepayment review and validation of payments, and financial audit services.

USAID/Pakistan believes that the strategic shift toward more partnerships with the Government of
Pakistan and Pakistani institutions has produced closer consultation to plan the direction of activities, the
type of activities to be funded, and transparency initiatives. USAID reports that it has made 33 awards
totaling $875.5 million to Pakistani institutions (Table 7), more than four times the number of awards
reported last quarter.




 




                                                                                                          28
         Table 7. Assistance to Pakistani Institutions as of June 30, 2010 (Unaudited)

                                                                       Number of     Value
                                   Type
                                                                        Awards         ($)
                                                                                   239,000,000
Budget Support* (Cash Transfers)                                           4

Higher Education Commission (April 2010)                                   1         45,000,000

Housing Damage Assistance for Khyber Pakhtunkhwa and FATA                  1         65,000,000

Internally Displaced Persons in Khyber Pakhtunkhwa                         1         44,000,000

Benazir Income Support Program                                             1         85,000,000

Direct Funding for Federal Government Projects                            11       489,621,000

High-Efficiency Irrigation Systems                                         1         50,000,000

South Waziristan Quick Impact Program (road, water, and electricity)       1         55,000,000
Malakand Quick Impact Program (schools, health, water and
                                                                           1         36,000,000
sanitation, government capacity)
Rehabilitation of Thermal Plant in Jamshorro                               1         18,360,000

Rehabilitation of Thermal Plant in Guddu                                   1         18,068,000

Rehabilitation of Thermal Plant in Muzaffargarh                            1         15,193,000

Tarbela Hydropower Plant Rehabilitation and Repair                         1         16,500,000

Irrigation Tube Well Efficiency Improvement Project                        1         18,500,000

Local Democratic Governance Municipal Services                             1        200,000,000

Distribution Companies Performance Improvement Program                     1         60,000,000

Health Services Academy (Ministry of Health)                               1          2,000,000

Direct Funding for Provincial Government Programs                          2        88,000,000

Punjab Education Sector Grant                                              1         48,000,000

Balochistan Middle Schools (budget offset)                                 1         40,000,000

Awards to Pakistani NGOs                                                  16        58,834,247

Children’s Television                                                      1         20,000,000

Parliamentary Institute Building                                           1          9,300,000

Bolton Market Business Revitalization Program                              1         13,000,000

Pakistan Anticorruption Program                                            1           400,000
Audit, Financial Review, and Related Financial Management Services
                                                                           5          2,500,000
(basic ordering agreement)


                                                                                                  29
                                                                          Number of                 Value
                                 Type
                                                                           Awards                    ($)
Audit and Financial Management Services (blanket purchase
                                                                                 4                  4,000,000
agreement)
Strengthen Capacity of the FATA Secretariat                                      1                    817,260
Accelerated Capacity Building of Provincial Relief, Rehabilitation and
                                                                                 1                    816,987
Settlement Authority (PaRRSA)
Pakistan Broadcasting Corporation                                               1                   8,000,000
Total                                                                          33              875,455,247
* For budget support, U.S. assistance funds are comingled with other budgetary resources available to the Pakistani
Government, and accounting for how the U.S. funds have been used is not possible. For project assistance, U.S.
funds are normally segregated in separate bank accounts, and the Pakistani Government is required to keep books
and records that show how assistance funds are spent.
Source: USAID/Pakistan




                                                                                                                30
Risks and Mitigation Strategies
Several risks that could jeopardize the U.S. Government’s assistance program in Pakistan were identified
by relevant U.S. Government agencies and oversight entities in the first quarterly report on the civilian
assistance program in Pakistan.

These risks are summarized below:

•      Political risks. Any softening of support for civilian rule and unambiguous opposition to all terrorist
       groups operating in Pakistan could endanger the assistance program and the relationship between
       the United States and Pakistan.

•      Resistance to change. Entrenched interests may resist policy reforms needed to transform the
       economy. According to USAID, if fundamental reforms are not implemented, assistance from the
       United States and other donors will have stabilized the economy only temporarily.

•      Security risks. Security concerns continue to reduce the ability of U.S. Government personnel to
       conduct direct monitoring and evaluation in conflict-affected areas, particularly Peshawar, FATA, and
       Khyber Pakhtunkhwa.

•      Direct budget support. U.S. assistance funds to the Government of Pakistan, in the form of budget
       support, are comingled with other resources available to Pakistan. Therefore, financial management
       and reporting challenges continue.

•      Limited institutional capacity. As Pakistan’s local government authorities and indigenous civil society
       organizations continue down a path of reform, especially in the FATA, Khyber Pakhtunkhwa, and
       Balochistan, their absorptive capacity is expected to be restricted at first but to grow over the
       course of the assistance strategy. Limited institutional capacity creates a risk that resources might
       be lost through inefficiency, theft, or general lack of capacity to handle large amounts of funding.

In addition to the risks listed above is the threat of terrorist attacks originating in Pakistan but carried
out on U.S. soil. An example was the car bomb found on May 1 in Times Square, for which a Pakistani-
born American citizen claimed responsibility. 11 Secretary of State Clinton, in a subsequent interview,
emphasized the importance of the Government of Pakistan’s cooperation in going after those who may
have encouraged, directed, trained, and sent the man who claimed responsibility for carrying out the
attempted bombing. Secretary Clinton stated that, if an attack like the Times Square bombing were
successful, Pakistan would face “very severe consequences.” 12

                                                            
11
  A Pakistani-born American citizen, Faisal Shahzad, pleaded guilty on June 21, 2010, to the attempted Times Square bombing.
Shahzad reportedly had received training from a Pakistani-based extremist organization, Tehrik-e-Taliban Pakistan. (New York
Times, Reuters.)
12   Secretary of State Hillary Rodham Clinton, interviewed by Scott Pelley, 60 Minutes, CBS, May 9, 2010. 

                                                                                                                         31
To prevent the loss of funds through inefficiency, theft, or general lack of capacity of Pakistan’s local
governments and civil society to handle large amounts of funding, the mission works directly with
Pakistani public and private partners to enhance activity management, oversight, and evaluation. For
example, USAID’s Office of Financial Management manages contracts to strengthen the Auditor General
of Pakistan (the Government of Pakistan's Supreme Audit Institution) and build the audit and financial
accounting capacity of local civil society organizations and private sector firms.

Furthermore, as USAID’s technical offices identify and select more local partners, institutional capacity-
building assistance will increase for new partners whose systems may not meet USAID’s standards.
Such assistance will provide the tools needed to strengthen new partners’ administrative and financial
management capabilities. Also, local auditing of U.S. assistance funds will help develop the capacity of
the Auditor General of Pakistan to conduct performance audits. The strategy will also develop the
capacity of Pakistani certified public accountant and certified management accountant firms through
training and collaboration with firms in the United States and linkage of the two types of firms locally.

USAID has its own regulations and procedures to protect taxpayer funds. Examples include monitoring
contractor performance by contracting officer’s technical representatives, reviewing vouchers,
conducting site visits, and producing risk assessments. In addition, before USAID/Pakistan can receive
base-year funds, USAID guidance requires the mission to conduct a review of all activities to assess the
risk of inadvertently providing financing to terrorist organizations, their members, or their supporters.
These terrorism financing risk assessments, performed in conjunction with the RSO and USAID’s Office
of Security, are a critical component in safeguarding taxpayer dollars.

USAID/Pakistan is designing a missionwide monitoring and evaluation contract and expects to award it in
December 2010. The contract will help USAID’s technical teams monitor ongoing projects and conduct
impact evaluations. Mission employees face difficulties in conducting these activities because they have
only limited access to USAID projects in insecure areas.

In addition to the aforementioned USAID strategies, USAID OIG has taken steps to ensure that U.S.
Government funds are protected against waste and theft:

•   Establishing field offices in Pakistan for the USAID and DOS OIGs. As of June 30, 2010, USAID OIG has
    nine permanent staff in Islamabad (seven U.S. direct hires and two Foreign Service National
    employees), supplemented by staff on temporary duty.

•   Expanding the use of independent Pakistani public accounting firms to conduct financial audits of funds
    provided to Pakistani NGOs. As of June 30, 2010, USAID OIG has 22 eligible audit firms in Pakistan.
    From the passage of the Enhanced Partnership with Pakistan Act on October 15, 2009, until June 30,
    2010, USAID OIG added 10 audit firms to its list of eligible audit firms in Pakistan.

•   Providing training to Pakistani public accounting firms and to the Office of the Auditor General. The training
    will cover standards and requirements applicable to financial audits of U.S. Government funds. In
    April 2010, USAID OIG provided training to 21 auditors from the Office of the Auditor General.
    USAID OIG plans to provide training for public accounting firms and Pakistani NGOs in September
    2010.

                                                                                                               32
•      Helping the Office of the Auditor General conduct financial audits. OIG will help the office conduct
       financial audits of funds provided to Pakistani Government entities.

•      Working with Pakistan’s National Accountability Bureau (NAB). 13 USAID OIG established a working
       relationship with NAB in early 2010. Since February, USAID OIG’s Office of Investigations has
       referred three investigations to NAB—two cases in Khyber Pakhtunkhwa and one case in Islamabad.
       OIG/Investigations and NAB share information and meet frequently to discuss progress in these
       cases. The cases under investigation include allegations of procurement fraud and bribery or
       kickback schemes associated with USAID-funded programs.

•      Collaborating with USAID/Pakistan to establish a fraud hotline in Pakistan. This project was approved in
       June 2010, and a USAID implementing partner is designing the hotline and a fraud awareness
       program. Once USAID/Pakistan, USAID OIG, and the implementing partner reach an agreement on
       how to proceed, a public event will be held to introduce the new program.

•      Providing fraud awareness briefings and expanding investigatory coverage. In the past quarter, USAID
       OIG personnel held numerous meetings with USAID/Pakistan contracting personnel, coordinated
       with the USAID regional legal advisor, and undertook other activities to ensure that personnel
       managing USAID projects know how to report fraud- and corruption-related issues.

•      Coordinating audits and investigations with other U.S. agencies. USAID OIG has worked with other
       OIGs, GAO, and law enforcement agencies, including the Federal Bureau of Investigation’s
       International Corruption Unit and the U.S. Embassy’s Legal Attaché Office. During this quarter,
       USAID OIG received significant investigative assistance from the FBI.




                                                            
13 NAB   is the primary law enforcement agency in Pakistan responsible for investigating white-collar crime and public corruption,
and it is Pakistan’s only law enforcement agency authorized to conduct investigations in FATA. 


                                                                                                                               33
Staffing
The U.S. Mission in Pakistan is increasing staffing levels in Islamabad and at regional offices in Peshawar,
Lahore, and Karachi to manage the increased USAID portfolio and budget. Staffing information provided
by USAID indicates that it had 38 U.S. direct-hire staff and 125 other staff members on board as of
May 31, 2010. Since the last quarterly report, the mission has increased its staff by 12 positions—5 U.S.
direct hires and 7 other staff members. Table 8 and Figure 2 detail USAID staffing.

               Table 8. USAID Staffing in Pakistan as of May 31, 2010 (Unaudited)

Category                    Islamabad      Peshawar      Lahore     Karachi      Total    Difference from
                                                                                          March 31, 2010

U.S. direct hire                  33            4           1           0          38             +5
U.S. staff from other              2            0           0           0            2            –
departments and agencies
U.S. personal services            12            5           0           0          17             –
contractors
Third-country nationals            6            2           0           0            8            +1
Foreign Service Nationals         78           12           3           3          96             +6
(Pakistani staff)
Eligible family members            1            0           0           1            2            –

Total                           132            23           4           4         163            +12
Source: USAID/Pakistan

To meet the target of 245 staff on board by the end of FY 2010, USAID will have to increase staffing in
Pakistan substantially during the next 3 months (Figure 2).

NAS reports that it had 78 staff and contractors on board as of June 30, 2010, including 2 U.S. direct
hires. The PAS reports that it had 11 direct hires on board as of that date.




                                                                                                         34
                         Figure 2. Actual and Projected Staffing Levels in Pakistan for USAID


                450


                400
                                                                              Total staff
                350


                300
Staff Members




                250


                200


                150


                100
                                                                                U.S. direct-hire staff
                50


                 0
                             9/2009            3/2010   6/2010*   9/2010*       3/2011*                  9/2011*
                      * Projections

                      Source: USAID/Pakistan




                                                                                                                   35
Oversight Status
USAID Office of Inspector General

USAID OIG oversees foreign assistance programs administered by USAID, the United States African
Development Foundation, the Inter-American Foundation, and the Millennium Challenge Corporation.
USAID OIG has strengthened its focus on Pakistan since USAID reopened its Pakistan mission in 2002.
In recent years, the OIG has covered a wide array of USAID programs in Pakistan, for relief and
stabilization, reconstruction, sustainable development, education, and health care. USAID OIG’s
oversight activities include performance audits, financial audits, and investigations.

Work Completed Since Apri1 1, 2010

From April 1 through June 30, 2010, USAID OIG completed one performance audit report and one
performance review report and reviewed two financial audit reports:

•   Audit of USAID/Pakistan’s Primary Healthcare Revitalization, Integration and
    Decentralization in Earthquake-Affected Areas Project (Audit Report No. 5-391-10-
    010-P, June 28, 2010). This performance audit focused on whether the project improved access
    to and the quality of primary health care services. The audit found that the project has contributed
    to improving the quality of primary health care services, but much work remains to be done on
    improving access to these services—particularly access to facilities that offer a higher level of health
    care to patients whose conditions cannot be treated at primary health care facilities. (For details on
    the results of this audit, see page 21.)

•   Review of USAID’s Internally Displaced Persons Programs in Pakistan (Report No. 5-
    391-10-001-S, June 28, 2010). This review assessed the status of USAID’s activities for IDPs in
    Pakistan. USAID OIG’s review was conducted concurrently with the Department of State (DOS)
    OIG’s review of the DOS program for IDPs implemented by the Office of the United Nations High
    Commissioner for Refugees (which is still in progress). USAID OIG found that monitoring and
    evaluation methods needed improvement and made four recommendations to address weaknesses.
    (For details on the results of this review, see page 15.)

•   Financial Audit of USAID Funds Managed by Forman Christian College, Lahore, for the
    Period July 1, 2007, to June 30, 2009 (Audit Report No. 5-391-10-033-R, May 18, 2010).
    Forman Christian College received $394,255 from USAID to develop a 4-year bachelor’s degree
    program and to strengthen the College’s programs in basic science and information technology. The
    auditors concluded that Forman Christian College’s fund accountability statement had fairly
    presented the revenues and costs incurred under the agreement. The audit did not disclose any



                                                                                                         36
    significant internal control deficiencies or any instances of noncompliance with applicable laws and
    regulations, or agreement provisions.

•   Financial Audit of USAID Funds Managed by Khushhali Bank, for the Year Ended
    December 31, 2008 (Audit Report No. 5-391-10-029-R, April 30, 2010). Khushhali Bank
    received $1,653,377 from USAID to improve poor households’ access to microfinance services and,
    secondarily, to strengthen the bank as a competitive microfinance institution. The auditors
    concluded that, except for the effects of $65,652 in questioned costs, the bank’s fund accountability
    statement fairly presented the revenues and costs incurred under the USAID-financed agreement.
    The $65,652 in questioned costs, as well as $24,282 in cost-sharing contributions by the bank that
    the auditors also questioned, represented provisions for doubtful loans that were potentially
    ineligible to be charged as costs under the agreement. USAID OIG recommended that USAID
    determine the allowability of these questioned costs and recover any costs determined to be
    ineligible.

In addition to these audit assignments, USAID OIG completed five investigative cases. In one case, with
the FBI’s assistance, USAID OIG conducted an investigation that resulted in the subsequent termination
of employment of a USAID personal services contractor. The individual was responsible for managing a
$300 million cooperative agreement. USAID OIG’s investigation revealed that the individual had acted
unethically by requesting assistance from a USAID implementing partner to obtain employment for
relatives. USAID OIG referred this matter to USAID/Pakistan in June 2010.
 
Work Under Way for FY 2010

As of June 30, 2010, USAID OIG has three performance audits and one financial audit in process:

•   Audit of USAID/Pakistan’s Family Advancement for Life and Health Program. In June
    2007, USAID/Pakistan launched this 5-year, $60 million program. The program aims to increase the
    availability of information and family planning services for low-income Pakistani women and operates
    in all four provinces of Pakistan. A nationwide social marketing program for contraception is also a
    component of the program. The program promotes birth spacing as an essential health intervention
    to reduce maternal and child mortality. It also promotes the use of contraceptive methods among
    families who want to space births. To remove barriers to contraceptive use, the program works to
    increase community understanding of the value of birth spacing for family health and well-being. The
    program also intends to improve access to quality reproductive health care in the public and private
    sectors. This audit will determine whether USAID/Pakistan’s Family Advancement for Life and
    Health Program has effectively provided access to family planning information and services.

•   Audit of USAID/Pakistan’s FATA Livelihood Development Program—Implemented by
    the Academy for Educational Development. FATA consists of semiautonomous areas along
    the border with Afghanistan, where the Pakistani Government has minimal control. These areas are
    frequently used by the Taliban for incursions into Afghanistan. Citizens there have less access to
    education, health care, clean water, and sanitation than do residents in other regions in Pakistan.
    The FATA Livelihood Development Program is a community-based program that aims to (1) create

                                                                                                      37
    jobs, increase incomes, and teach employable skills, (2) revitalize community infrastructure and
    essential services, and (3) support established businesses and develop sustainable new enterprises.
    The OIG’s audit will assess the program’s effectiveness in improving livelihoods in FATA.

•   Audit of USAID/Pakistan’s FATA Livelihood Development Program—Implemented by
    CHF International. This audit is similar to the preceding one, but it covers the portion of the
    program that is implemented by CHF International.

•   Financial Audit of the Costs Incurred by Research Triangle Institute Under the
    Education Sector Reform Assistance Program’s School Enhancement Program
    Component, for the Period December 4, 2002, to September 30, 2007.

In addition to these audit assignments, USAID OIG has eight open investigative cases.

Work Planned for the Remainder of FY 2010

During the remainder of FY 2010, USAID OIG expects to conduct one additional performance audit and
four financial audits:

•   Audit of USAID/Pakistan’s Pre-Service Teacher Education Program (Pre-STEP). The
    objective of the Pre-Service Teacher Education Program is to improve the quality of basic education
    in Pakistan by strengthening teachers’ education and skills. The program will directly benefit new
    and practicing teachers by helping them gain revised and upgraded teacher qualifications. This
    $75 million, 5-year program will enable the nonprofit Education Development Center and the Pre-
    STEP team to partner with the Ministry of Education, the Higher Education Commission, selected
    universities, and the district-level colleges responsible for the training and certification of new
    teachers. By providing intensive support and training in student-centered teaching practices,
    assistance with curriculum design, development and implementation of a measurable system of
    teaching standards, and appropriate incentives and accreditation policies, Pre-STEP will assist
    Pakistan in producing teachers prepared to meet the educational demands of the 21st century. This
    audit will determine whether USAID/Pakistan’s Pre-Service Teachers Education Program is helping
    teachers improve their professional qualifications.

•   Financial Audit of USAID Funds Managed by Ministry of Finance, Government of
    Pakistan for Education, Health, and Clean Drinking Water Budget Lines, for the Period
    June 15, 2007, to June 30, 2008, and for the Government of Pakistan Rural Landless
    Compensation Policy Budget Line, for the Period June 15, 2007, to December 31, 2009.

•   Financial Audit of USAID Funds Managed by the Ministry of Economic Affairs and
    Statistics (Economics Affairs Division) Under the Cash Transfer Grant Agreement,
    Activity No. 391-AAG-012-IL-01 for Internally Displaced Persons, for the Period July 1,
    2009, to June 30, 2010.




                                                                                                     38
•   Financial Audit of USAID Funds Managed by the Higher Education Commission Under
    the Merit and Needs-based Scholarship Project, for the Period July 2, 2004, to
    June 30, 2010.

•   Financial Audit of the USAID/Pakistan Trust Funds Composed of Operating Expenses,
    for the Fiscal Years Ended September 30, 2007, 2008, and 2009.


Department of State Office of Inspector General

Work Under Way for FY 2010

From April 1 through June 30, 2010, the Department of State (DOS) OIG had one performance audit
and one inspection under way:

•   Review of Pakistan’s Internally Displaced Persons (Performance Audit). The review will
    determine whether (1) the U.S. Government and international organizations have effectively met the
    protection, food, and other assistance needs of Pakistan’s IDPs, (2) the U.S. Government has a
    coordinated and effectively managed program to protect and assist these persons, and (3) the
    program has accounted for the flow and use of funds provided to assist Pakistan’s IDPs. This audit is
    in the fieldwork stage.

•   Inspection of Embassy Islamabad (Pakistan). The inspection will evaluate the Embassy’s
    implementation of policy; management of resources; adequacy of management controls; and
    measures to protect people, information, and facilities. This review is in the final report stage.

Additionally, the DOS OIG’s Office of Investigations has two open cases for Pakistan. No DOS
investigators are assigned to Pakistan at this time; investigative work is carried out by the Middle East
Investigative Branch offices located in Jordan and Egypt.

Work Planned for the Remainder of FY 2010

The DOS OIG has three activities planned for the remainder of FY 2010—one evaluation and two
performance audits:

•   Review of Emergency Action Plans for Embassies Baghdad, Kabul, and Islamabad
    (Program Evaluation). The review will assess the status and effectiveness of emergency action
    plans for Embassies Baghdad, Kabul, and Islamabad to determine their reasonableness and their level
    of coordination with the military commanders in-country.

•   Review of Local Security Guard Program, Embassy Islamabad (Performance Audit).
    The review will examine and summarize the requirements and provisions of the Islamabad Embassy
    Security Force contract, including the objectives of the contract and task orders, indicators


                                                                                                          39
    established to measure performance, and internal controls over the contractor’s performance and
    contract costs.

•   Review of Internal Management Controls of Funds Provided to Pakistan (Performance
    Audit). The review will determine whether specific internal controls have been properly designed
    and put in place for the Pakistan program funds, including procedures for planning, organizing,
    directing, and controlling program operations. The review will also assess the system put in place
    for measuring, reporting, and monitoring program performance.

Department of Defense Office of Inspector General

The DOD OIG has one Pakistan assignment planned for the remainder of FY 2010:

•   Pakistan Security Assistance and Coalition Support Funds. This project will assess whether
    security assistance and support funds have been managed effectively. Additional research will
    identify specific objectives.


Government Accountability Office

GAO is an independent, nonpartisan agency that oversees Federal Government spending. GAO’s
mission is to help improve the performance and ensure the accountability of the Federal Government
for the benefit of the American people. GAO performs oversight at the request of Congress.
Additionally, GAO may be required to research issues mandated by public laws or may undertake work
prompted by broad-based congressional interest under the authority of the Comptroller General. GAO
supports congressional oversight through many avenues, such as auditing agency operations, investigating
allegations of illegal activities, reporting on the efficiency and effectiveness of government programs and
policies, analyzing policy, outlining options for congressional consideration, and issuing legal decisions
and opinions. GAO consults with key members of the accountability community, including the
inspectors general. For example, GAO participates in the Afghanistan-Pakistan Subgroup, which is
chaired by USAID OIG and focuses on oversight of U.S. programs in those two countries.

Work Completed Since April 1, 2010

Between April 1 and June 30, 2010, GAO published one report:

•   Combating Terrorism: Planning and Documentation of U.S. Development Assistance
    in Pakistan's Federally Administered Tribal Areas Need to Be Improved (GAO-10-289,
    April 2010). GAO noted that U.S. development objectives in FATA are generally aligned with U.S.
    national security goals and Pakistan’s FATA development plans, but plans by USAID and Pakistan for
    joint strategic implementation and other development activities in FATA had not yet been
    completed. As of the end of FY 2009, the U.S. Government had reportedly allocated more than
    $728 million of its pledged $750 million for development assistance in FATA and tracked most, but
    not all, of these obligations and expenditures in accordance with good management practices. GAO

                                                                                                        40
    also noted that some key elements and documentation for programs were missing or not collected
    in performance management plans and reports. Further, GAO found that USAID could not apply
    the direct monitoring procedures for development assistance called for in its guidance, because of
    security challenges, and did not always document its use of indirect monitoring procedures. GAO
    made several recommendations to DOS and USAID to improve planning, documentation, and
    monitoring of U.S. development assistance to Pakistan’s FATA. GAO noted the importance of
    enhancing oversight in light of the $7.5 billion in new assistance for Pakistan authorized by the
    Enhanced Partnership with Pakistan Act of 2009.

Work Under Way for FY 2010

GAO has four ongoing engagements concerning Pakistan:

•   U.S. Efforts to Enhance Pakistan’s Security Forces. This engagement will assess (1) U.S.
    plans and funding for improving the counterterrorism and counterinsurgency capabilities of Pakistani
    forces operating in the western frontier bordering Afghanistan; (2) the status of specific projects and
    activities and the challenges associated with implementing those efforts; and (3) the extent to which
    DOD and DOS monitoring and oversight of U.S.-funded activities in support of this effort provide
    reasonable assurance that funds are used and activities are implemented as intended. GAO expects
    to complete the engagement in July 2010.

•   Pakistan Assistance Strategy Report. This engagement is mandated by Section 302(b)1 of the
    Enhanced Partnership with Pakistan Act of 2009 (Public Law 111-73). It will assess the report
    describing U.S. policy and strategy for U.S. democratic, economic, and development assistance to
    Pakistan, as authorized by Title I of the act ($1.5 billion for 5 years, $7.5 billion total). GAO is
    tasked with commenting on the strategy, making recommendations to improve the efficiency and
    effectiveness of U.S. efforts, describing Pakistan’s expenditures under the Foreign Military Financing
    Program, and assessing the impact of U.S. assistance on the security and stability of Pakistan. The
    Secretary of State sent the report to Congress in mid-December 2009; GAO’s report is due no
    later than 1 year after the report is submitted. GAO expects to complete it in December 2010.

•   Pakistan’s Progress Combating Terrorism. This engagement is mandated by Section 302(b)2
    of the Enhanced Partnership with Pakistan Act of 2009 (Public Law 111-73). GAO will conduct an
    independent analysis of the President’s annual certification that: (1) the Government of Pakistan has
    demonstrated a sustained commitment to and is making significant efforts toward combating
    terrorist groups during the preceding fiscal year, including progress on matters such as ceasing
    support to terrorist groups, preventing terrorist groups from operating in Pakistan, and
    strengthening counterterrorism and anti-money-laundering laws; and (2) the security forces of
    Pakistan are not materially and substantially subverting the political or judicial processes of Pakistan.
    GAO expects to complete this assessment 120 days after the President’s certification is sent to
    Congress.

•   Pakistan Nuclear Networks. This engagement is mandated by Section 302(b)2 of the Enhanced
    Partnership with Pakistan Act of 2009 (Public Law 111-73). It will assess the extent to which (1) the

                                                                                                          41
    U.S. Government assessed and disclosed the reliability and accuracy of documentary evidence used
    to support the President's certification that Pakistan is cooperating with the U.S. Government in
    dismantling nuclear weapons-related supplier networks; (2) conclusions in the certification are
    consistent with the views of experts in private sector research organizations, academia, and other
    U.S. Government agencies, or are explained where they differ; and (3) there are gaps in the issues
    the U.S. Government considered in making its certification. GAO expects to complete the
    assessment 120 days after the President’s certification is sent to the Congress.

Work Planned for the Remainder of FY 2010

In response to congressional interest, GAO may begin additional work on Pakistan and state its findings
in subsequent reports.




                                                                                                      42
Completed Oversight Reports, as of June 30, 2010

Table 9 lists oversight reports completed since the passage of the Enhanced Partnership with Pakistan
Act, October 15, 2009.

                  Table 9. Oversight Reports Completed as of June 30, 2010

Agency     Report Number        Report Date                             Report Title
                                                 Audit of USAID/Pakistan’s Primary Healthcare Revitalization,
                                    6/28/10
USAID     5-391-10-010-P                         Integration and Decentralization in Earthquake-Affected
                                                 Areas Project

                                    6/28/10      Review of USAID’s Internally Displaced Persons Programs in
USAID     5-391-10-001-S
                                                 Pakistan

                                                 Financial Audit of USAID Funds Managed by Forman
                                    5/18/10
USAID     5-391-10-033-R                         Christian College, Lahore, for the Period From July 1, 2007,
                                                 to June 30, 2009

                                    4/30/10      Financial Audit of USAID Funds Managed by Khushhali Bank
USAID     5-391-10-029-R
                                                 for the Year Ended December 31, 2008

                                                 Combating Terrorism: Planning and Documentation of U.S.
                                    4/2010
GAO        GAO-10-289                            Development Assistance in Pakistan's Federally
                                                 Administered Tribal Areas Need to Be Improved
                                                 The Bureau of International Narcotics and Law Enforcement
                                    3/12/10
DOS        MERO-A-1 0-03                         Affairs Air Wing Program in Afghanistan and Pakistan,
                                                 Performance Audit
                                                 Status of the Bureau of International Narcotics and Law
                                   11/18/09
DOS        MERO-A-10-02                          Enforcement Affairs Counternarcotics Programs in
                                                 Afghanistan, Performance Audit
                                                 Closeout Financial Audit of USAID Funds Managed by
                                    3/24/10
USAID     5-391-10-026-R                         Greenstar Social Marketing Pakistan (Guarantee) Limited,
                                                 for the Period from July 1, 2007, to December 31, 2007
                                                 Closeout Financial Audit of USAID Funds Managed by Aga
                                    2/11/10
USAID     5-391-10-020-R                         Khan University—Examination Board, for the Year Ended
                                                 December 31, 2007
                                    1/28/10      Audit of USAID/Pakistan’s Capacity Building for the
USAID     5-391-10-005-P
                                                 Federally Administered Tribal Areas Development Program
                                                 Financial Audit of USAID Funds Managed by Children’s
                                   12/22/09
USAID     5-391-10-012-R                         Global Network Pakistan Limited, for the Year Ended
                                                 June 30, 2008




                                                                                                             43
                                                                                               Appendix I




Appendix I—The Enhanced Partnership with Pakistan
           Act of 2009, Public Law 111-73

Title I. Democratic, Economic, and Development Assistance

Title I authorizes five types of programs, identified below. Also, Title I encourages the President to
utilize Pakistani firms and nongovernmental organizations, as appropriate, and to work with local leaders
to provide assistance. It states that assistance funds shall be utilized to the maximum extent possible as
direct expenditures for projects and programs. Finally, up to $30 million of the $1.5 billion per year
authorized for Title I will be available to the Inspectors General for the Department of State and USAID
for audits, investigations, and other oversight activities.

Title I Programs

1. Consolidation of democratic institutions
   • Support for efforts to strengthen Pakistan’s institutions, including the National Parliament
   • Voter education and civil society training
   • Political party capacity building
   • Capacity strengthening for the civilian Government of Pakistan

2. Rule of law, government capacity, and respect for human rights
   • Establishment of frameworks that promote government transparency and criminalize corruption
   • Police professionalization, including training regarding use of force, human rights, and community
      policing
   • Support for judicial and criminal justice systems
   • Legal and political reforms in FATA
   • Counternarcotics support
   • Promotion of human rights
   • Support for responsible, capable, and independent media

3. Economic freedom and economic development
   • Investments in water resource management systems
   • Farm-to-market roads, systems to prevent spoilage and waste, and other small-scale
      infrastructure improvements
   • Investments in energy
   • Employment generation
   • Support for worker rights
   • Increased access to microfinance
   • Expanded opportunities and training for youth at risk of radicalization


                                                                                                       44
                                                                                                            Appendix I


4. Investment in people
   • Support for primary and secondary education and vocational and technical training
   • Higher-education programs
   • Public health programs
   • Capacity-building support for nongovernmental and civil society organizations
   • Assistance to refugees and internally displaced persons and long-term development programs in
      high-conflict regions

5. Public diplomacy
   • Opportunities for civil society and other leaders to speak out against militancy and violence
   • Expanded exchange activities to promote mutual understanding and interfaith dialogue

Title II. Security Assistance

Title II authorizes three types of programs, identified below. Assistance under Title II requires
certifications by the Secretary of State, under the direction of the President, that (1) the Government of
Pakistan is continuing to cooperate with the United States in efforts to dismantle supplier networks
relating to the acquisition of nuclear weapons-related materials, (2) the Government of Pakistan has
demonstrated a sustained commitment to and is making significant efforts toward combating terrorist
groups, and (3) the security forces of Pakistan are not materially and substantially subverting the political
or judicial processes of Pakistan. In addition, the act provides that direct cash payments may be
provided or made only to civilian authorities of a civilian government of Pakistan.

Title II Programs

1. International military education and training
It is the sense of Congress that a substantial amount of the funds appropriated for international military
education and training should be for courses in counterinsurgency and civil-military relations.

2. Foreign military financing program
Grant assistance is authorized under the Arms Export Control Act 14 to purchase defense articles,
defense services, and military education and training for Pakistan. A significant portion of the amount
made available to carry out this subsection for a fiscal year shall be for the purchase of defense articles,
defense services, and military education and training for activities relating to counterinsurgency and
counterterrorism operations in Pakistan. It is the sense of Congress that a significant majority of funds
should be used for such purposes, and that the United States should facilitate reconstruction assistance,
including through Pakistan’s military as appropriate, in areas damaged by combat operations.


                                                            
14 The Arms Export Control Act of 1976 is defined under 22 U.S.C., Chapter 39. The act was updated by Congress on January
5, 2009.

 


                                                                                                                      45
                                                                                               Appendix I


3. Exchange program between Pakistani military and civilian personnel and personnel in
other countries
Exchange programs are authorized between civilian and military Pakistani personnel and personnel in
NATO member countries and other countries, as determined by the Secretary of State, to foster
mutual respect for and understanding of the principle of civilian rule of the military.

Title III. Strategy, Accountability, Monitoring, and Other Provisions

Title III requires the submission of certain strategy and monitoring reports:

• Pakistan assistance strategy report describing the principal objectives and specific programs
planned to carry out Title I of the act (45 days after enactment).

• Comprehensive regional security strategy report describing a comprehensive interagency
regional security strategy to eliminate terrorist threats and close safe havens in Pakistan (180 days after
enactment).

• Security-related assistance plan describing proposed uses of security-related assistance (180 days
after enactment).

• Semiannual monitoring reports describing assistance provided under Title I including an
assessment of the effectiveness of the assistance provided (every 180 days).

• Report by the Government Accountability Office (GAO) including a review of the Pakistan
assistance strategy report, recommendations relating to any actions needed to improve the efficiency
and effectiveness of U.S. efforts to meet the objectives of the act, a detailed description of the
expenditures made by Pakistan pursuant to grant assistance under Section 23 of the Arms Export
Control Act (22 U.S.C. 2763; relating to the Foreign Military Financing program), and an assessment of
the impact of the assistance on the security and stability of Pakistan (1 year after submission of the
Pakistan assistance strategy report).

• GAO report regarding certifications that (1) the Government of Pakistan is continuing to
cooperate with the United States in efforts to dismantle supplier networks relating to the acquisition of
nuclear weapons-related materials, (2) the Government of Pakistan has demonstrated a sustained
commitment to and is making significant efforts toward combating terrorist groups, and (3) the security
forces of Pakistan are not materially and substantially subverting the political or judicial processes of
Pakistan (120 days after certifications are made).




                                                                                                        46
                                                            Appendix II




Appendix II—–Abbreviations

CEO    chief executive officer

COR    contracting officer’s representative

DEA    Drug Enforcement Administration

DHS    Department of Homeland Security

DOC    Department of Commerce

DOD    Department of Defense

DOE    Department of Energy

DOL    Department of Labor

DOS    Department of State

ECON   Economic Affairs Section (U.S. Embassy Islamabad)

FBI    Federal Bureau of Investigation

FATA   Federally Administered Tribal Areas

FY     fiscal year

GAO    Government Accountability Office

IDPs   internally displaced persons

INL    International Narcotics and Law Enforcement (DOS)

IT     information technology

MWP    Ministry of Water and Power

NAB    National Accountability Bureau

NAS    Narcotics Affairs Section (U.S. Embassy Islamabad)

                                                                     47
                                                                        Appendix II


NGO        nongovernmental organization

OIG        Office of Inspector General

PaRRSA     Provincial Relief, Rehabilitation and Settlement Authority

PAS        Public Affairs Section (U.S. Embassy Islamabad)

POL        Political Affairs Section (U.S. Embassy Islamabad)

Pre-STEP   Pre-Service Teacher Education Program

RSO        Regional Security Office (U.S. Embassy Islamabad)

USAID      U.S. Agency for International Development

USDA       U.S. Department of Agriculture

USIP       U.S. Institute for Peace

USTDA      U.S. Trade and Development Agency

WAPDA      Water and Power Development Authority




                                                                                 48
